to 6 weeks for delivery. The manufacturer’s warranty,
if any, is the only warranty covering Merchandise
Rewards. We and the Choice Rewards Program
Administrator don’t make any guarantees, warranties
or representations of any kind, expressed or implied,
with respect to the Merchandise Choice Rewards
and expressly disclaim any implied warranties of
merchantability or fitness for any particular purpose.
Choice Rewards are provided solely by the applicable
manufacturers. We and the Choice Rewards Program
Administrator have no responsibility or liability for
such products. You release us and the Choice Rewards
Program Administrator from any and all liability for
any loss, expense, accident, injury or inconvenience
that may arise in connection with the use or defect of
any Reward. A minimum of 7,500 points is required
to purchase Merchandise, 5,000 minimum points to
purchase a Gift Card.
Cash Back Rewards. Each Cash Back Rewards point
redeemed equals one cent ($0.01) towards the cash
back amount. You may redeem your points for cash
back in the form of a deposit to your OneAZ CU
Savings or Checking Account, payment towards your
OneAZ CU Choice Rewards Credit Card account or
as a donation to one of our designated charities.
Cash Back redeemed in the form of a deposit to your
OneAZ CU Savings or Checking Account is limited
to $50 increments. Cash Back redeemed towards
payment of your Choice Rewards Credit Card is
limited to increments of $50. Cash Back redeemed
as a donation to one of our designated charities is
limited to $50 increments.
You must attain a minimum of 20,000 points before
you are allowed to redeem any Cash Back points.
A minimum redemption of 5,000 points is required.
Cash Back redeemed in the form of donations will
be directed to the charity selected. Cardholder will
receive an acknowledgment letter within 60 days of
donation. Please allow 1 – 2 weeks processing time.
7. PERIODIC STATEMENTS OF POINT ACTIVITY.
Your Choice Rewards information will be summarized
on your regular monthly statement along with Points
Earned, Points Redeemed, and Points Available.
Points Available will also be displayed on the www.
curewards.com website.
8. CHANGES. We may, from time to time and in our
sole discretion, amend, delete or add to the terms of
this Agreement and may change or limit any aspect of
the Program and its restrictions, benefits, or features,

in whole or in part. Such changes are effective to
all Cardholders and may be applied retroactively.
Changes may include, but are not limited to, the
number of points required to earn specific Choice
Rewards, the type of transactions which qualify for
points, the type and/or value of Choice Rewards, the
availability of Choice Rewards, the Choice Rewards
offerings, the imposition of an annual Program
membership fee or the increase of any fees associated
with the Program, or the number of points which may
be earned or purchased. Your accumulation of points
does not give you any vested rights and you may not
rely upon the continued availability of any Reward.
We will post any such changes to the Agreement
on the Website and it is your responsibility to
review the Agreement for any such changes. If you
fail to close your Choice Rewards Account or any
Cardholder uses your Card after the effective date of
an amendment, you will be deemed to have agreed
to any amendments to the Program set forth in the
continuously updated Agreement at OneAZcu.com.
9. TERMINATION OR CANCELLATION. We reserve
the right to suspend or terminate the Program and
this Agreement at any time. Our decisions regarding
the Program are final. If the Program is terminated,
you will be notified of the date by which you must
redeem all your accumulated points. You must request
issuance of the award by the effective termination
date and otherwise comply with all terms of the
Program in effect before termination. We may also
terminate your Choice Rewards Account immediately,
without notice, if we determine that any Cardholder
has violated the redemption rules of this Program
or is in any way involved in fraud, theft or other
illegality, or if we terminate or suspend your OneAZ
CU Choice Rewards Credit Card. If we terminate your
Choice Rewards Account for any of those reasons, the
accumulated points on your Choice Rewards Account
will be forfeited and you will not be allowed to
redeem those points for any reward. After termination
of the OneAZ CU Choice Rewards Program, the Terms
and Conditions of this section shall no longer apply
to your OneAZ CU Choice Rewards Credit Card.
All other Terms and Conditions of your Credit Card
Agreements shall apply. You will still be obligated
to make monthly payments and comply with all of
the Terms and Conditions stated in your Cardholder
Agreements.
10. INCOME TAXES. Earning points or redemption
of points for Choice Rewards may result in tax liability.
Any applicable federal, state, or local tax obligations

related to the Program are your sole responsibility.
Please consult your tax advisor concerning any such
income or other tax consequences related to your
participation in the Program. Tax reporting, if any,
will be made to the tax identification number of the
Primary Credit Cardholder.
11. LIABILITY. OneAZ CU, the Choice Rewards
Program Administrator, and their parent and
subsidiary companies and affiliates (Program Sponsor
and Program Administrators) are only agents for the
providers of travel services or other products and
services. By participating in the OneAZ CU Choice
Rewards Program, you agree that all merchandise
and travel services, including but not limited to
services provided by any travel agency, air carrier
(Service Provider or Supplier), are only provided by
that Service Provider or Supplier and not by the
Program Sponsor or the Program Administrators. In
addition to being subject to the terms of this OneAZ
CU Choice Rewards Program, you will also be subject
to and must comply with the terms of the Service
Provider or Supplier tickets, vouchers, certificate,
cards, contracts, and rules and regulations established
by our Choice Rewards Program Administrator. We
and the Choice Rewards Program Administrator
do not guarantee the accuracy of, and disclaim
liability for inaccuracies relating to the information
and description of the merchandise, charities, air
and other travel products displayed on our Website
(including, without limitation, photographs, general
product descriptions, etc.). The Program Sponsor and
the Program Administrators make no representations
about the suitability of the information, software,
products, and services contained on our Website for
any purpose, and the inclusion or offering for sale of
any products or services on this Website does not
constitute any endorsement or recommendation of
such products or services by the Program Sponsor
and or the Program Administrators. The carriers, and
other Service Providers or Suppliers providing travel
or other merchandise or services are independent
contractors and not agents or employees of the
Program Sponsor or the Program Administrators. The
Program Sponsor and the Program Administrators
do not warrant, endorse or vouch for any retailer,
merchant or agency (Service Provider or Supplier)
or its products or services, and provides the OneAZ
CU Choice Rewards Program AS IS: the entire risk
as to satisfactory quality and performance of each
Service Provider or Supplier and of their services is
with you and/or the Service Provider or Supplier. the
Program Sponsor and Program administrators hereby

disclaim all implied warranties (if any), including but
not limited to implied warranties and conditions of
merchantability or fitness for a particular purpose.
The Program Sponsor and Program Administrators
are not liable for the acts, errors, omissions,
representations, warranties, breaches or negligence
of any such Service Providers or Suppliers or for any
personal injuries, death, property damage, or other
damages or expenses resulting from the usage
of goods or services. The Program Sponsor and
Program Administrators have no liability and will
make no refund in the event of any delay, cancellation,
overbooking, strike, force majeure or other causes
beyond our direct control, and have no responsibility
for any additional expense, omissions, delays, rerouting or acts of any government or authority. By
participating in the Program, you agree that: (i) the
Program Sponsor and Program Administrators shall
not be liable for any breach of warranty or other
problem, or for damages of any nature directly or
indirectly caused by or relating to a Service Provider/
Supplier or their services; (ii) the Program Sponsor
and Program Administrators shall not be liable for
any accident occurring during travel or related to the
use of any product or services provided by any Service
Provider or Supplier which results in personal injury,
damage to property, or other loss to any person; (iii)
the Program Sponsor and Program Administrators
shall not be liable for any incidental or consequential
damages; (iv) any dispute must be settled between
you and the Service Provider/Supplier; and (v) that
all damages that the Program Sponsor or Program
Administrators might owe you shall be limited to the
aggregate amount of your annual Choice Rewards
Account participation fee, which damages shall be
your sole and exclusive remedy against the Program
Sponsor and Program Administrators.

Choice Rewards
Credit Card
Terms and Conditions

2355 W. Pinnacle Peak Rd.
Phoenix, AZ 85027
REV. 4/20/16

ONEAZ CREDIT UNION
CHOICE REWARDS PROGRAM
TERMS AND CONDITIONS

a particular transaction is a Qualifying Purchase or to
include or exclude other charges from the definition
of Qualifying Purchases.

Please read and retain these Terms and Conditions
(Agreement) which contain important information
about the OneAZ Credit Union (OneAZ CU) Choice
Rewards Program. By participating in the OneAZ CU
Choice Rewards Program (Program), you agree to this
Agreement. The separate Terms and Conditions of
the Choice Rewards Credit Card Agreement, which
govern your Credit Card Account, are located at www.
OneAZcu.com (Website).

4. POINTS. For each dollar of Qualifying Purchases
charged to your OneAZ CU Choice Rewards Credit
Card, you will be awarded one point. Your points will
begin to accumulate following your first Qualifying
Purchase. Points are earned once our Choice
Rewards Program Administrator credits them to your
Choice Rewards account in its Choice Rewards point
accounting system (Choice Rewards Account). We
may also award bonus points for certain transactions
and/or for promotions (details will be provided with
such offers) and such promotional points may take up
to 10 weeks to appear. There is no limit to the number
of points you may earn. If points are not redeemed,
points will expire after six calendar years on
December 31. Accumulated points will be redeemed
or expire on a first-in, first-out basis. Except for the
Cash Rewards option described below, points have
no cash or retail value and may only be used to obtain
Choice Rewards as described in this Agreement.
Points cannot be sold, attached, or pledged under
any circumstance. We have the right to suspend
redemption rights of your points in the event there is
a dispute between you and us, or between you and
a joint owner or authorized user. Points cannot be
used to pay any obligation owed to us or any third
party, or be used in conjunction with promotions or
discounts offered outside of this program. You will
not accumulate points for Qualifying Purchases on
your OneAZ CU Choice Rewards Credit Card if it
is flagged as Suspended, Lost/Stolen, Over- limit,
Past Due, Voluntary Closed, Revoked, or otherwise
not in good standing with OneAZ CU. Your Choice
Rewards Account balance may be reduced by any
returns, credits or other refunds, charge reversals,
chargebacks or other disputes, or point forfeitures
resulting from Card Account closure or default, and
may be negative if credits for a particular period
exceed purchases of goods and services. We will not
give you notice of forfeiture. You are not entitled to
compensation from us or any other entity when your
points expire or are forfeited for any reason.

1. ELIGIBILITY AND ENROLLMENT. This Choice
Rewards Program is sponsored by OneAZ CU (we,
us, ours) and is restricted to OneAZ CU Choice
Rewards Cardholders in good standing (as defined
by us from time to time). We, or the party hired to
manage and administer OneAZ CU’s Choice Rewards
Program (Choice Rewards Program Administrator),
reserve the right to determine at our sole discretion
whether you are eligible for enrollment or continued
participation in the Program. We are not responsible
for the Choice Rewards Program Administrator’s
products, services or decisions relating to this
Program or redemptions.
2. ENROLLMENT. Enrollment into Choice Rewards is
automatic following OneAZ CU approval of your credit
request. You can access our Program information via
the Choice Rewards Website at www.curewards.com
or within the OneAZ CU Online Banking Website
located at www.OneAZcu.com.
3. QUALIFYING PURCHASES. Only authorized
charges for Qualifying Purchases made with your
OneAZ CU Choice Rewards Credit Card for the
purchase of goods or services, less any credits for
charge reversals or other refunds, will earn points.
Qualifying Purchases do not include balance
transfers or cash advances; convenience checks;
payments made for store value cards, such as
gift cards and similar cards; wire transfers; money
transfers; travelers checks and similar products
that may be converted to cash, such as money
orders and certified checks charged to your Card
Account; all incidental charges and fees charged
by us (for example: voluntary payment protection
costs, finance charges, returned check fees, service
charges, and ATM fees); and purchases when your
Card Account is not in good standing. We reserve
the right to determine at our sole discretion whether

5. REDEMPTION OF POINTS. You can redeem
accumulated points to obtain Choice Rewards
through the Website at www.curewards.com. Choice
Rewards must be obtained directly from the Choice
Rewards Program administrator and not by any other
means (including telephonic, in-person, internet or
wireless communications) through any third party

including any other seller, charter, agencies, airlines,
associations or persons engaged in the business of
reserving, arranging or procuring travel discounts or
arrangements, tickets, vouchers, or gift cards. We may
take direction from any Authorized Cardholder when
redeeming your accumulated points. We and our
Choice Rewards Program Administrator will not be
liable for fulfilling Choice Rewards requests we believe
in good faith are made by any person claiming the
authority to act on your behalf. In addition, you may
not redeem accumulated points if your OneAZ CU
Choice Rewards Credit Card is flagged as Suspended,
Lost/Stolen, Over-limit, Past Due, Voluntary Closure,
Revoked, or otherwise not in good standing with
OneAZ CU. Redeemed merchandise may be shipped
within the 48 contiguous United States only. Gift
Cards may be shipped within all 50 states.
6. CHOICE REWARDS. You can use your points
to obtain travel benefits, merchandise, gift cards,
and cash back (collectively Choice Rewards). The
complete selection of Choice Rewards is available at
www.curewards.com. All Choice Rewards are subject
to availability and restrictions of Travel Supplier or
Service Provider. Choice Rewards and number of
points required or reward levels may be changed
or substituted at any time at the sole discretion
of OneAZ CU for any reason. OneAZ CU and the
Choice Rewards Program Administration have the
final authority on all decisions regarding all Choice
Rewards ticketing, pricing and availability and the
interpretation of the Terms and Conditions in this
Agreement and Cardholder Agreements.
Travel Rewards. You must make all Travel Rewards
reservations via www.curewards.com. Travel Choice
Rewards may not be used for minors traveling
unaccompanied by an adult. Redeemed points will be
deducted from your Choice Rewards Account at
the time of booking. Any fees associated to the
applicable redemption or ticket purchase will be the
responsibility of the traveler at the time of booking.
All Travel Choice Rewards must be issued at the
time of booking or reservations will not be held. No
point amounts, Travel Choice Rewards availability,
or dates of travel are confirmed until the required
number of points have been deducted and any cash
balances have been paid, and the tickets or travel
documents have been issued. Airline travel must be
completed by the expiration date indicated on the
airline travel document. The Choice Rewards Program
Administrator has the right to cancel the booking in
the event of non-payment or payment dispute. In the

event that your credit card is declined, the Choice
Rewards Program Administrator will attempt to
collect payment up to two times. If we are unable to
obtain authorization, your package will be subject to
cancellation and standard penalties will be applied.
Choice Rewards are valid only in conjunction with
individual travel and are not applicable to group
travel, package tours, conventions or other special
rates and/or package programs, food and beverage
credits, incidental expenses, or service charges. You
have the option to redeem Travel Choice Rewards
using a combination of Choice Rewards points and
may offset the remainder of the total trip cost by
paying in dollars with your OneAZ CU Choice Rewards
Credit Card or you may pay for the entire booking
directly with your OneAZ CU Choice Rewards Credit
Card without using points. If applicable, any fees or
redemption associated charges will appear on your
monthly credit card statement as Trip Charges. All
airline tickets booked in exchange for points are
nonrefundable, nonendorsable and nontransferable.
Changes to bookings are subject to the Choice
Rewards Program Administration fees and conditions.
All changes must be within the same travel region as
defined by the carrier’s fare rules and meet the booking
requirements in effect at the time of the change. Any
additional costs due to a permitted change are your
responsibility and will be collected in U.S. dollars, not
points, with your OneAZ CU Choice Rewards Credit
Card. You are responsible for any change, cancellation
or additional collection fees imposed by the airline.
All tickets must be obtained through the Choice
Rewards Program Administrator on an approved
airline carrier. There are blackout dates and
restrictions. Generally, tickets cannot be booked
up to six (6) months in advance. You may choose
the carrier and travel dates subject to availability
and blackout dates. You may choose flights that are
nonstop, direct, one-way, involve a change of planes,
or flights into and out of different airports. Our
Choice Rewards Program Administrator reserves the
right to decline to obtain tickets from carriers with
unreliable service records. Tickets on some carriers
may not be available from time to time. Further,
due to the government regulations and federal law,
tickets to some destinations may not be available.
You are responsible for paying any miscellaneous
costs, including baggage, airport/airline fees and
surcharges, government imposed fees, airline fuel
surcharges, gratuities, insurance and airline amenities.
Tickets may be purchased in your name or the name of
any other individual you designate. You may purchase

companion full fare tickets using your OneAZ CU
Choice Rewards Credit Card. You agree to pay the
additional administrative fee that may be charged to
your OneAZ CU Choice Rewards Credit Card for each
companion fare purchased. Points are fully redeemed
when an airline ticket is issued. All tickets booked are
non-refundable and are subject to all airline rules,
restrictions and limitations, which include exclusions
and limitations of liability. Please consult your air
carrier for information regarding airline liability
limitations, baggage liability and other regulations
of the Warsaw Convention and other regulations.
There are no exchanges or refunds if you fail to make
a flight. All returns, exchanges, and cancellations
should be handled directly with the airline issuing
your ticket. For this service, the airlines charge a fee
per ticket in conjunction with any additional airfare. If
the Choice Rewards Program Administrator handles
an exchange, there will be an additional fee per
ticket. You are responsible for any fare increases for
ticket changes. Any change to your flight itinerary is
subject to the airline’s terms and conditions, including
any applicable change fees. We and the Choice
Rewards Program Administrator are not responsible
for communication of airline schedule changes. You
should reconfirm flight reservations at least 24 hours
prior to departure for domestic reservations and 72
hours prior to departure for international reservations.
Failure to use any reservations may result in automatic
cancellation of all continuing and return reservations.
You must advise the airlines if your travel plans change
en route. You should check with each airline regarding
its specific boarding and check-in requirements. You
must have a valid photo ID for airport check-in.
Additional documentation such as a Passport, Visa,
and certain health requirements may be required
for travel outside of the United States and is your
responsibility. We and the Choice Rewards Program
Administrator are not responsible for the performance
of the airlines or any provider of travel services under
the Program, including but not limited to delivery,
bankruptcy, and schedule changes. In the event
an airline ceases flying and tickets sold for future
travel are not honored by other airlines, you will not
receive a refund or points credit. Additional costs for
overnight delivery of tickets or for delivery outside of
the U.S. shall be at your expense and will be charged
to your OneAZ CU Choice Rewards Credit Card. Lost,
stolen, otherwise destroyed or expired tickets cannot
be reissued or replaced.
Other Travel Benefits. Travel rewards may include
Car Rental, Hotels, Cruises, Vacations, Experiences

and Insurance. The availability and point requirements
of travel rewards may change from time to time. Please
check www.curewards.com for details, program rules
and restrictions.
Gift Cards and Merchandise Rewards. Each gift
card and merchandise point redeemed equals one
cent ($0.01) towards the gift card or merchandise
price. You may redeem points to obtain Gift Cards
or merchandise that we make available through the
Program, subject to availability. If a particular Reward
is no longer available or is out of stock, we reserve
the right to offer a substitute of equal or greater
value. You may not purchase a Gift Card in an amount
greater than the maximum card value for that award.
We may change the selection and number of points
needed to obtain a Gift Card or Merchandise Reward
at any time without notice to you. Gift Card must be
presented directly to the participating merchant at
participating locations. Mechanical reproductions,
copies, or facsimiles of Gift Cards will not be accepted.
Gift Cards are transferable to and may be redeemed
by any person. Gift Cards may be shipped within all 50
states, allowing 3 to 4 weeks for delivery. Additional
costs for overnight delivery of Gift Cards or for delivery
outside of the U.S. shall be at your expense and will
be charged to your OneAZ CU Choice Rewards Credit
Card. Additional terms, conditions, restrictions and
limitations appearing on the Gift Cards or packaging
will also apply and are to be interpreted in accordance
with, and are incorporated into, this Agreement. Gift
Cards will expire on the date shown on the card
(approximately one year from the date of issue). Gift
Cards may only be used once, are not exchangeable,
refundable, or transferable to a different Reward or
redeemable for cash, and will not be reissued or
replaced if lost, stolen, destroyed, or expired. Gift
Cards and Merchandise Rewards are shipped prepaid
and cannot be returned or exchanged unless the
merchandise arrived damaged, defective or if the
wrong item was shipped. Returns and exchanges
must be sent to the address on the packing slip within
60 days of the date of your receipt. You may return
damaged or defective Gift Cards or Merchandise
for replacement with the same Reward. There are
no refunds for any Gift Card or Merchandise Choice
Rewards. Gift Cards and Merchandise may only be
shipped to a street address within the United States,
not a P.O. Box, APO or FPO address. Some items
may not be shipped to Alaska or Hawaii. Under no
circumstances should items be shipped directly to any
OneAZ Credit Union location. Only standard shipping
is available for Merchandise Rewards, allowing for 4

